OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

December 15, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Elim Romanian Pentecostal Church, et al. v. Pritzker, No. 20-569

Dear Mr. Harris:
On November 30, 2020, this Court directed Respondent Governor JB Pritzker
to respond to the petition for a writ of certiorari in the above-captioned case by
December 30, 2020. Pursuant to Supreme Court Rule 30.4, respondent respectfully
requests a 30-day extension of time to January 29, 2021, to file his response.
Counsel for petitioners oppose this request.
Petitioners challenge a restriction on the size of indoor, in-person religious
gatherings that has not been in effect since May 29, 2020. The United States Court
of Appeals for the Seventh Circuit affirmed the denial of petitioners’ request to
preliminarily enjoin the enforcement of that expired limit on June 16, 2020. Elim
Romanian Pentecostal Church v. Pritzker, 962 F.3d 341 (7th Cir. 2020). More than
four months later (and nearly three months after the Seventh Circuit denied
petitioners’ petition for rehearing en banc), on October 22, 2020, petitioners filed a
petition for a writ of certiorari of that decision.
The extension requested by respondent is necessary due to current and recent
work responsibilities held by Assistant Attorney General Priyanka Gupta, who will
draft respondent’s brief in opposition under my supervision. Specifically, on
December 9, 2020, Ms. Gupta filed a reply brief in Holmes v. Godinez, Nos. 20-2236,
20-2709 (7th Cir.). In addition, during December 2020, she drafted multiple
motions and other filings and reviewed trial court attorneys’ filings in several
matters, including Cassell v. Snyders, No. 20-1757 (7th Cir.); Indiana Rail Road v.
Illinois Commerce Commission, 20-3129 (7th Cir.); In re Brody S., No. 5-20-0039 (Ill.
App. Ct.); and State of Illinois ex rel. Raoul v. Elite Staffing, Inc., No. 2020-CH05156 (Cook Cnty. Cir. Ct.).
500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

Moreover, my work responsibilities and personal schedule also merit an
extension. As the Solicitor General of Illinois, I devote substantial time to
performing supervisory and administrative duties, including editing briefs in
numerous appeals and helping attorneys prepare for oral argument. Additionally, I
will be out of the office for much of the period between December 17, 2020 and
January 1, 2021.
This is respondent’s first request for an extension of time. It is not made for
purposes of delay, but solely to ensure that respondent’s interests are adequately
protected. Thank you in advance for your attention to this matter.
Sincerely,
/s/ Jane Elinor Notz
Jane Elinor Notz
Solicitor General
100 West Randolph Street
12th Floor
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
cc: Mathew D. Staver, Counsel for Petitioner

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

